LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

May 20, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-7846:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

ANGEL ORTIZ V. DENNIS BRESLIN, SUPERINTENDENT,
QUEENSBORO CORRECTIONAL FACILITY, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Restorative
Action Alliance on May 20, 2021, I caused service to be made pursuant to Rule 29 and
the Temporary Order of April 15, 2020 on the following counsel for the Petitioner and
Respondents:
PETITIONER:
Lawrence T. Hausman
The Legal Aid Society
199 Water Street
5th Floor
New York, NY 10038
646-584-5885
thausman@legal-aid.org

RESPONDENTS:
Brian David Ginsberg
Office of the Attorney General
The Capitol
Albany, NY 12224
518-776-2040
brian.ginsberg@ag.ny.gov

This service was effected by depositing one copy of the Brief of Amicus Curiae
Restorative Action Alliance in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of May 2021.

